No. 20-621
IN THE SUPREME COURT OF THE UNITED STATES
HUA CAI
Petitioner
v.
HUNTSMAN CORPORATION,
Respondent

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition For Rehearing
contains 1616 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d). I declare under penalty of perjury that the foregoing is
true and correct.
I hereby certify that this Petition For Rehearing is presented in good faith and not
for delay, and that it is restricted to the grounds specified in Supreme Court Rule
44.2.

Executed on February 7, 2021.

HUA CAI (U^ /
Pro se
V W
2/F No.5, Laae 113,
Changshu Road, Shanghai,
200040 P.R. China
Tel: +86 136 8195 1099
mustangincpk@yahoo.com
(

